HHS/OIG, Audit -"Review of Audit of the Medicaid Drug Rebate Program in Kansas,"(A-07-03-04017)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Audit of the Medicaid Drug Rebate Program in Kansas," (A-07-03-04017)
May 8, 2003
Complete
Text of Report is available in PDF format (1.37 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the Kansas Department
of Social & Rehabilitation Services (SRS) had established adequate accountability
and internal controls over the Medicaid drug rebate program.  We found
that the SRS lacked sufficient internal controls with regard to the Medicaid
drug rebate program as required by federal rules and regulations.  Areas
that lacked sufficient internal controls included:  recording accounts
receivable, reconciliation of form CMS 64.9R and the general ledger, interest
accrual, interest reporting, and invoice verification.  These issues occurred
because the SRS did not develop or follow adequate policies and procedures
with regard to the drug rebate program.  Federal regulations require effective
control over and accountability for all funds, property and other assets.  In
addition, the rebate agreements between the Centers for Medicare and Medicaid
Services (CMS) and the drug manufacturers require the payment of interest on
all disputed, late, and unpaid drug rebates.  Also, the State Medicaid
Manual requires interest revenue to be reported on the Form CMS 64 Summary
Sheet.  Drug rebate receivables were perpetually understated and it is
likely that the SRS did not receive all drug rebates and interest on disputed
or late rebate payments due from manufacturers.  In addition, the SRS
did not have reasonable assurance that drug rebate balances and collections
reported to CMS were accurate.  Moreover, the lack of sufficient internal
controls increased the risk for fraud, waste, or abuse of drug rebate program
funds.